No. 20-891

 

 

IN THE

Supreme Court of the United States

AMERICAN AXLE & MANUFACTURING, INC.,

Petitioner,
v.

NEAPCO HOLDINGS LLC, ET AL.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

BRIEF OF BIOTECHNOLOGY INNOVATION
ORGANIZATION AND AUTM AS AMICI
CURIAE IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,285 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 1, 2021.

 

Colin Casey Hegan
Wilson-Epes Printing Co., Inc.
